<html>
<title> - THE FOUNDING FATHERS' PAPERS: ENSURING PUBLIC ACCESS TO OUR NATIONAL TREASURES</title>
<body><pre>[Senate Hearing 110-334]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-334
 
 THE FOUNDING FATHERS' PAPERS: ENSURING PUBLIC ACCESS TO OUR NATIONAL 
                               TREASURES 

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 7, 2008

                               __________

                          Serial No. J-110-72

                               __________

         Printed for the use of the Committee on the Judiciary


                     U.S. GOVERNMENT PRINTING OFFICE

41-482 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001





































































                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ARLEN SPECTER, Pennsylvania
JOSEPH R. BIDEN, Jr., Delaware       ORRIN G. HATCH, Utah
HERB KOHL, Wisconsin                 CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       JEFF SESSIONS, Alabama
CHARLES E. SCHUMER, New York         LINDSEY O. GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
           Stephanie A. Middleton, Republican Staff Director
              Nicholas A. Rossi, Republican Chief Counsel




























































                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cardin, Hon. Benjamin L., a U.S. Senator from the State of 
  Maryland.......................................................    21
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts..................................................     2
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................   121
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania, prepared statement...............................   142

                               WITNESSES

Katz, Stanley N., Chairman, Papers of the Founding Fathers, 
  Professor, Woodrow Wilson School of Princeton University, 
  Princeton, New Jersey..........................................    12
Ketcham, Ralph, Professor of History Emeritus, Maxwell School of 
  Syracuse University, Syracuse, New York........................    14
Marcum, Deanna B., Associate Librarian of Library Services, 
  Library of Congress, Washington, D.C...........................     8
McCullough, David G., Presidential Historian and Author, Camden, 
  Maine..........................................................     4
Rimel, Rebecca W., President and Chief Executive Officer, The Pew 
  Charitable Trusts, Philadelphia, Pennsylvania..................    10
Weinstein, Allen, Archivist of the United States, Washington, 
  D.C............................................................     6

                         QUESTIONS AND ANSWERS

Responses of Stanley N. Katz to questions submitted by Senator 
  Specter........................................................    28

Responses of Deanna B. Marcum to questions submitted by Senator 
  Specter........................................................    37

Responses of Allen Weinstein to questions submitted by Senator 
  Specter........................................................    41

                       SUBMISSIONS FOR THE RECORD

Doyle-Wilch, Barbara, Dean of Library and Information Services, 
  Middlebury College, President, Vermont Library Association, 
  Middlebury, Vermont, letter....................................    43
Graffagnino, J. Kevin, Executive Director, Vermont Historical 
  Society, Montpelier, Vermont, letter...........................    44
Jordan, Daniel P., President, Thomas Jefferson Foundation, Inc., 
  Charlottesville, Virginia, letter and statement................    46
Katz, Stanley N., Chairman, Papers of the Founding Fathers, 
  Professor, Woodrow Wilson School of Princeton University, 
  Princeton, New Jersey, statement...............................    49
Ketcham, Ralph, Professor of History Emeritus, Maxwell School of 
  Syracuse University, Syracuse, New York, statement.............   116
Marcum, Deanna B., Associate Librarian of Library Services, 
  Library of Congress, Washington, D.C., statement...............   123
McCullough, David G., Presidential Historian and Author, Camden, 
  Maine, statement...............................................   125
Moe, Richard, President, National Trust for Historic 
  Preservation, Washington, D.C., letter.........................   128
Morgan, Edmund S., Sterling Professor of History emeritus, Yale 
  University, letter.............................................   130
Philadelphia Inquirer, Edward Colimore, article..................   132
Rimel, Rebecca W., President and Chief Executive Officer, The Pew 
  Charitable Trusts, Philadelphia, Pennsylvania, statement.......   136
Roll Call, February 6, 2008, article.............................   140
Washington Post, December 15, 2007, article......................   144
Weinstein, Allen, Archivist of the United States, Washington, 
  D.C., statement................................................   147
Wilentz, Sean, Sidney and Ruth Lapidus Professor in the American 
  Revolutionary Era and Professor of History, Princeton 
  University, Princeton, New Jersey, letter......................   154
Wood, Gordon S., Alva O. Way University Professor and Professor 
  of History, Brown University, Providence, Rhode Island, letter.   157


 THE FOUNDING FATHERS' PAPERS: ENSURING PUBLIC ACCESS TO OUR NATIONAL 
                               TREASURES

                              ----------                              


                       THURSDAY, FEBRUARY 7, 2008

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                     Washington, DC
    The Committee met, Pursuant to notice, at 10:09 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Kennedy, Cardin, and Whitehouse.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. You know, every so often you get to--around 
here we have committee meetings on horrible crimes, we have 
committee meetings on wars, we have committee meetings on 
contentious issues.
    David, we have a place for you right there in the front.
    Then every so often, we actually have something that's 
fascinating.
    Senator Kennedy. And important.
    Chairman Leahy. And important. It is an important hearing, 
as Senator Kennedy says, on improving public access to the 
papers of our Nation's Founding Fathers.
    Last this month we will celebrate the 276th birthday of our 
first President, George Washington. Very few of us were here in 
the Senate at that time.
    [Laughter.]
    There is much to be learned from our Founders and our 
shared national history. We will work with the Reporter to 
clear up that little bit of the transcript.
    [Laughter.]
    But my father was a printer in Vermont, a self-taught 
historian. I was steeped from childhood in a deep appreciation 
in the First Amendment and the power of the written word, and 
the value and the vitality of our Nation's rich history to us, 
and to each future generation of Americans. So, today it is 
especially good that we have this distinguished panel of 
historians, scholars, and government officials.
    The works of our Founding Fathers are a part of the 
identity and heritage of every single American. We should do 
everything possible to make these papers available, accessible, 
and affordable to the American people, especially at a time 
when many of us are concerned that not enough Americans know 
enough about the history of our country, all of it, the good, 
the bad, everything else.
    More than a half century ago, we undertook the important 
task of making the correspondence and diaries and other 
writings of the six Founding Fathers--George Washington, James 
Madison, Thomas Jefferson, John Adams, Benjamin Franklin, and 
Alexander Hamilton--available to the American people. But a lot 
of this remains largely incomplete and inaccessible to most 
Americans today. They commonly referred to ``letter press'' 
projects operated at major universities and other institutions 
around the country.
    Although the first volumes of the papers were published in 
the 1950's, only the papers of Alexander Hamilton have been 
completed. According to the National Historic Publication and 
Records Commission NHPRC, the papers of Thomas Jefferson will 
not be completed until 2025, the Washington papers in 2023, the 
papers of Franklin and Madison in 2030, and the Adams papers in 
2050. That is 100 years after the projects began.
    We spent nearly $30 million in taxpayer dollars in Federal 
taxpayer projects, and it is estimated another $60 million in 
combined public and private money going in here. One volume of 
the Hamilton papers costs $180. The price for the complete 26-
volume set of the papers is around $2,600. So I think only a 
few libraries had one volume of the papers, and only 6 percent 
had more than one volume.
    So I'm trying to find out how best to get this out to 
everybody. I'm a long-time advocate for Internet use. I think 
the Web can help a great deal, but we've got to have better 
online access. I know a lot of Americans have gained insights 
and developed important connections to our national heritage by 
simply viewing the Declaration of Independence and the 
Constitution and Bill of Rights on display at the National 
Archives. I remember, as a teenager, going there with my 
parents and how thrilled I was.
    So with these distinguished historians I am almost afraid 
to say this next line, so I will say this was written by my 
staff, who give me too much credit. But if Jefferson, Adams, 
Hamilton, and Franklin could get into this discussion, I almost 
imagine them saying, what are we waiting for? When he was asked 
recently about the troubling lack of access to the Founding 
Fathers' papers, the Presidential historian and author David 
McCullough, who is here, said that ``These volumes of the 
Founders are more of a monument than anything built in stone. I 
don't want people to wait for another 50 years.'' Mr. 
McCullough, I agree with your sense of urgency.
    So we will hear from this distinguished panel and see where 
we might go.
    [The prepared statement of Senator Leahy appears as a 
submission for the record.]
    Senator Kennedy, did you want to--

 STATEMENT OF HON. EDWARD M. KENNEDY, A U.S. SENATOR FROM THE 
                     STATE OF MASSACHUSETTS

    Senator Kennedy. Well, just very briefly. I want to thank 
you. I thank Senator Leahy for holding this hearing and join 
him saying that it's a matter of enormous importance and 
consequence, and in welcoming a very distinguished panel this 
morning.
    I think all of us understand that the preservation and 
publication of the papers of our Founders is a matter of 
enormous importance to historians and the general public alike. 
These documents offer unique witness to our history and a 
unique window through which to examine how our country came to 
be what it is today. As many have remarked, these documents are 
``American scripture.''
    I want to say that it is a privilege to have Dave 
McCullough with us today, one of the Nation's most respected 
historians, whose works have been some of our most widely read 
books. He has brought to light many of the extraordinary 
leaders and historic events in our national heritage, and I 
thank him for sharing his talents with all of us.
    It is a privilege to welcome Stanley Katz, a distinguished 
leader in the academic community. He has been a source of wise 
counsel to many of us over the years. He is chairman of the 
Papers of the Founding Fathers, and has a major role in guiding 
and fostering the scholarship on this subject.
    I also welcome Allen Weinstein, who is doing such an 
impressive job at the National Archives in overseeing the 
release of Presidential papers, the administration of the 
Presidential library, and many other important tasks.
    I particularly appreciate all he has done to keep a copy of 
the Magna Carta on display at the Archives. When it came up for 
sale not long ago, David Rubenstein purchased it and made a 
donation of the only copy of this historic document here in the 
United States, and all of us are grateful to Dr. Weinstein and 
Mr. Rubenstein for ensuring that to future generations will be 
able to view the historic document.
    The Founding Fathers Project, established half a century 
ago, continues to be an important national mission. When 
completed, it will be an extraordinary resource for research 
for all of us who cherish our national history. As Mr. 
McCullough has said, the final product will be ``a monument 
that will last longer than any of the monuments that we now 
have.''
    These documents are national treasures. Recently, my wife 
Vicki and I participated in an event sponsored by the Adams 
Papers. Governor Deval Patrick, his wife Diane, and former 
Governor Dukakis joined us in Faneuil Hall, one of the 
monuments of our early democracy, to read the letters of John 
and Abigail Adams. The event absolutely packed Faneuil Hall, 
the interest of the citizens in this small little item of 
American history was just overwhelming.
    It was a special night, and I'm grateful that the Adams 
Papers sponsored such an occasion to share the words, the 
affection, and the vision of this remarkable couple who made 
such a contribution to the creation of America. It's an example 
of the type of outreach that the Founding Fathers Project can 
make possible in the years ahead.
    So, I look forward to hearing from our distinguished 
witnesses to learn more about the project. By all accounts, the 
scholarship produced by the project has been extraordinary. 
Nonetheless, there are concerns about the pace of the 
publications and about making sure they reach the widest 
possible audience. We in Congress need to do all we can to 
help. We know future generations of Americans will be immensely 
grateful for our effort. So, thank you all for coming.
    Thank you, Mr. Chairman.
    Chairman Leahy. Thank you, Senator Kennedy.
    I'm always nervous when I start one of these things, having 
Senator Kennedy, who was chairman of this committee long before 
I was and is far more experienced here. But I'm not going to do 
my usual thing. We usually swear witnesses in. This is not 
necessary, and by consent we'll waive that for this panel, of 
course.
    Our first witness will be Dave McCullough, a well-respected 
Presidential historian and author, recipient of numerous 
awards, including twice winning the Pulitzer Price, twice 
winning the National Book Award, and the Presidential Medal of 
Freedom.
    In 1989, Mr. McCullough, I remember very well when you were 
one of the few private citizens to address a joint meeting of 
Congress. You graduated from Yale University with honors in 
English literature. On a personal note, he was one of the 
people we all relied on, those of us who were here at the time 
of the Panama Canal debate.
    I was saying to several out back that in that debate, 
before we had TV in the Senate, virtually every desk had a copy 
of your book, those who were opposed to the treaty and those 
who were for it, because it was the one thing we could go to 
that everybody agreed on the facts that were there. We would 
then interpret those facts as we wanted, of course.
    So, Mr. McCullough, it's all yours.

 STATEMENT OF DAVID G. MCCULLOUGH, PRESIDENTIAL HISTORIAN AND 
                     AUTHOR, CAMDEN, MAINE

    Mr. McCullough. Mr. Chairman, I want to thank you very much 
for the chance, the privilege, to speak before this committee 
in support of the Founding Fathers Project. What has been 
achieved thus far with a publication of the papers of the 
Founders is all of an exceedingly high order. I want to attest 
to that emphatically as one of the many--the countless 
numbers--of historians, biographers, scholars, and students who 
have drawn again and again on the great wealth of material to 
be found in these incomparable volumes.
    Their value is unassailable, immeasurable. They are 
superbly edited. They are thorough. They are accurate. The 
footnotes alone are pure gold; many are masterpieces of close 
scholarship.
    Over the past 20 years and more, I have worked with, 
depended in particular, on the volumes of Washington, Adams and 
Jefferson papers. I could not have written my last two books, 
John Adams and 1776 without them. I know how essential the 
papers are to our understanding of those great Americans and of 
their time.
    Just this past week for my current project, I wanted to 
find out what all was contained in the 80-some crates that 
Thomas Jefferson shipped back home to Virginia in the course of 
his 5 years of diplomatic service in France, all the books, 
art, and artifacts, the scientific instruments and the like. 
The range and variety of inventory would, of course, reflect 
much about the mind of the man.
    So I turned to the Jefferson papers hoping there might be 
something, and sure enough, there it was, volume 18, the whole 
sum total in a footnote that runs nearly six pages in small 
type. I know what work had to have gone into that footnote, the 
care and the attention to detail. There have been times when I 
spent a whole day on one paragraph just trying to get it right, 
to be clear and accurate, so I know.
    The men and women who have devoted themselves to the 
publication of the papers are not skilled editors only, they 
are dedicated scholars. Their standards are the very highest. 
Their knowledge of their subject often surpasses that of 
anyone. I have worked with them. I know them. I count them as 
friends. Several in particular have guided and helped me in 
ways for which I am everlastingly grateful.
    They are the best in the business and the high quality of 
the work they do need not, must not, be jeopardized or vitiated 
in order to speed up the rate of production. There really 
should be no argument about that. As you know, publication of 
the papers began with volume one of the Jefferson papers in 
1950 when Harry Truman was President.
    With this in mind, and given the opportunities we have, I 
would like to offer an analogy from that distant time of the 
cold war. The Russians had sealed off Berlin and the urgent 
question was what to do about it. A massive airlift was 
proposed, but it was calculated that given the number of planes 
available and the volume of cargo each plane could carry and 
the number of landings that could be made per day given the 
number of airfields available, supplying the daily needs of 
food and fuel for a city of 2.5 million people would be 
impossible, so somebody suggested building another airfield.
    We need to build another airfield. We need to double the 
investment in the project. Double each staff, and thereby pick 
up the pace with no change in quality. We know it will work and 
we know it will work effectively because it is already working 
with the post-Presidential papers of Jefferson's being edited 
at Montecello, and the Adams papers being edited at the 
Massachusetts Historical Society in Boston.
    And what worthy work it is. Imagine, of all Jefferson's 
post-Presidential papers, thus far less than a third have ever 
appeared in print. Think of the discoveries, the insights still 
to come. The value of the Founding Fathers' papers goes far 
beyond their scholarly importance, immense as that is.
    As Daniel Jordan of Montecello has said, ``The papers are 
American scripture. They are our political faith. The free and 
open exchange of ideas, often brilliant expressions of some of 
the most fertile minds, the greatest statesmen and patriots in 
our entire history. No one body of private and public 
correspondence, official papers, and pronouncements tell us 
more about that founding time or more about who we are and what 
we hold dear. The papers of the Founding Fathers are an 
ultimate national treasure and their importance to the American 
people, especially in such times as these, could not be 
greater.''
    Mr. Chairman, you can tell a lot about a society by how it 
spends its money. Here is our chance, and it is long overdue, 
to show what we care about, what we value, and what we are 
willing and proud to pay for. Thank you.
    [The prepared statement of Mr. McCullough appears as a 
submission for the record.]
    Chairman Leahy. Thank you. You may hear that last line 
quoted again when I am wearing my other hat as a member of the 
Appropriations Committee. I happen to agree very much with you.
    Dr. Allen Weinstein is confirmed as the ninth Archivist. 
For those with a little bit of history, the Archivist actually 
has to be confirmed like a Supreme Court Justice. Some would 
say sometimes the Archivist is every bit as important, if not 
more so. He was confirmed as the ninth Archivist of the United 
States in February of 2005.
    Prior to his time at the National Archives and Records 
Administration, he was a professor of history and held 
positions in Boston University, my alma mater, Georgetown 
University, and Smith College. He is the author of numerous 
essays and books. He is past winner of the prestigious United 
Nations Peace Medal for efforts to promote peace, dialogue, and 
free elections in critical parts of the world.
    Doctor, please go ahead.

 STATEMENT OF ALLEN WEINSTEIN, ARCHIVIST OF THE UNITED STATES, 
                        WASHINGTON, D.C.

    Mr. Weinstein. Thank you, Mr. Chairman. Mr. Chairman, 
Senator Kennedy, members of the committee, I want to thank you 
for having invited me to testify on this important issue, one 
which has been of keen interest to me throughout my almost half 
century as an historian, and most intensely during the past 3 
years as Archivist of the United States.
    I must interject also, it is an enormous privilege for me 
to sit in this panel with so many of my colleagues, people I 
have worked with in other ways, and especially with the 
extraordinary David McCullough. Thank you for all your work, 
David.
    Let me begin with a few facts. Unlike the practice of 
preserving and making available to the public the papers of 
each President of the United States beginning with Franklin 
Roosevelt, there was no policy in place in the 18th century to 
archive the papers of the Founders of the Nation. If collected 
at all, documents were either scattered in diverse 
repositories, public and private, or held within Federal 
institutions, often very informally.
    Responding to many of the same concerns that led to the 
creation of the National Archives in the 1930s, historians and 
scholars had long urged the creation of a Federal entity to 
collect historical materials related to the three branches of 
national government and to publish specifically the important 
papers of our Presidents in order to make them more widely 
available to all citizens.
    In 1934, a Federal entity, the National Historical 
Publications Commission, NHPC, was created within the National 
Archives to address this mission. Although not initially funded 
as a grant-making agency, the Commission called for publication 
of comprehensive documentary editions of the papers of the key 
Founders, Thomas Jefferson, George Washington, Benjamin 
Franklin, Alexander Hamilton, John Adams, and James Madison, as 
well as a documentary history of the ratification of the 
Constitution.
    Encouraged by historians, work began on a comprehensive 
edition of the papers of Thomas Jefferson. Its first volume was 
completed in 1950 and presented to President Truman, who, 
impressed by the project's scope, became a strong supporter of 
the NHPC's work on the Founders. Subsequently, in 1964, the 
Commission began awarding grants for these projects.
    The documentary editions collect, transcribe, and annotate 
the materials written and received by these key American 
statesmen. In the early years, much time and effort was spent 
locating and assembling thousands of documents and deciphering 
18th century handwriting. The National Historical Publications 
& Records Commission, NHPRC, a name change in 1974, has funded 
this process for the past 44 years. It has provided over $18 
million in awards to six Founding Fathers documentary editing 
projects, resulting in the publication of 216 volumes to date. 
The volumes have been praised for their careful work, 
scholarship, and detailed annotation.
    At the same time, however, many Americans have been 
frustrated by the slow pace of production and would like to 
have earlier access to these papers in their entirety. For 
example, the Adams Papers project, begun in 1954, does not 
anticipate completion until 2049. This important work must be 
completed at an accelerated pace and we must find ways to 
partner with others outside the Federal Government in new and 
creative ways to reach this goal and to achieve the most cost-
effective solutions.
    With the advent of the Internet, online versions of the 
documentary editions are both possible and desirable, Mr. 
Chairman. Without sacrificing work on the scholarly editions, 
the National Archives' NHPRC hopes to develop a plan to produce 
online editions of all major published and unpublished 
collections of the Founders' papers at the earliest possible 
moment.
    Achievement of this goal will require cooperation among all 
of the scholars and university presses involved, as well as 
steady support from the Congress on a time table geared to 
early completion of the online editions.
    Some projects have already begun to work toward this goal. 
For example, the project to publish the papers of Benjamin 
Franklin has made available online the complete collection of 
its printed volumes, as well as unpublished transcripts of 
Franklin's papers. The online materials are freely available to 
the public.
    To achieve the timely online editions of the papers of the 
Founders, NHPRC would need to negotiate an agreement with the 
project sponsors to release and post online unannotated 
transcripts of the raw materials for future printed volumes. 
The presses and projects have a longstanding financial interest 
in these collections, as well as a commitment to ensure 
thorough scholarship. At the same time, scholarly presses have 
at the core of their mission open access to knowledge.
    Critical and crucial to open access is that a clear and 
effective plan be created for speeding projects along. Our goal 
should be to achieve a balanced approach which ensures that the 
public has the earliest possible access to online editions of 
the collected papers of the Founders, and at the same time that 
scholars commit to complete their work in a timely fashion.
    I will be responding within the next month or so, Mr. 
Chairman, to the language in the recently passed appropriations 
bill directing me, ``as chairman of the NHPRC to develop and 
submit a comprehensive plan for online electronic publication 
of the papers of the Founding Fathers within a reasonable 
timeframe.''
    Only the closest cooperation among the main actors in this 
process, the National Archives' NHPRC, the documentary editors, 
and our congressional supporters, only that kind of cooperation 
will produce the desired outcome: timely and cost-effective 
online editions of the Founders' writings and the finest 
scholarly editions possible in our lifetime.
    This hearing, Mr. Chairman, is an important step toward 
fulfilling these goals and we thank you for holding it.
    This concludes my brief prepared statement. I'm happy to 
try and answer any questions. Thank you.
    [The prepared statement of Mr. Weinstein appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much.
    When we talk about the need for cooperation--we'll go back 
to this after--I don't think any of us underestimate the 
importance of that. I'm well aware in some of these papers 
you're dealing with second, third, or fourth copies. If you're 
going to put these papers out there, you have the most accurate 
version possible.
    Dr. Deanna Marcum became the Associate Librarian for 
Library Services in August of 2003. Am I correct on that?
    Ms. Marcum. Yes.
    Chairman Leahy. She is responsible for integrating the 
emerging digital resources into the traditional library 
efforts, to build a digital library for the 21st century. From 
1995 to 2003, Dr. Marcum served as the president of the Council 
on Library Resources, and obviously one who is concerned with 
what is happening here.
    Dr. Marcum, please go ahead.

 STATEMENT OF DEANNA B. MARCUM, ASSOCIATE LIBRARIAN OF LIBRARY 
         SERVICES, LIBRARY OF CONGRESS, WASHINGTON, DC

    Ms. Marcum. Mr. Chairman, members of the Committee, as the 
Associate Librarian of the Library of Congress, I serve as the 
Library's representative on the National Historical 
Publications & Records Commission at the National Archives.
    I am very pleased to see that the Judiciary Committee has 
taken an interest in making the papers of the Founding Fathers 
more accessible to the American people.
    Libraries across the country, and the Library of Congress 
in particular, are devoted to making information resources 
available and useful to their fellow citizens. Federal tax 
dollars have been used for more than 50 years to fund the 
scholarly editions of the Founding Fathers' papers. It seems 
appropriate that the results of the scholars' work be made more 
accessible to the American people as soon as possible. The 
system now in place is slow, laborious, and expensive, and 
unfortunately the results have not been widely accessible.
    The Library of Congress has been a pioneer in providing 
digital access to historical resources. In the early 1990s, 
even before the Internet was in widespread use, the Library of 
Congress established the American Memory Project, making our 
unique primary documents illuminating American history much 
more widely available to people everywhere.
    We converted historical documents to digital form and 
produced CD-ROMs for distribution in schools. The Internet has 
allowed us to make these materials much more widely available, 
not just to America, but to the world. Our acclaimed Web site, 
originally intended to provide resources for the K-12 
community, has proved to be enormously useful to the 
educational and academic communities and to the general public.
    In 2007, the Library's Web site of more than 10 million 
digital items recorded over 5 billion individual transactions, 
a clear indication of our effectiveness and commitment to 
access.
    Chairman Leahy. Let me make sure I have that right. Five 
billion?
    Ms. Marcum. Billion.
    The Library of Congress serves as the custodial home of the 
Presidential papers, from George Washington to Calvin Coolidge, 
with the notable exception of the Adams papers. Prior to the 
creation of the National Archives in 1934, the library was the 
historical repository for such materials. To make the documents 
of the Founding Fathers more widely available, the Library of 
Congress has digitized and made accessible on our Web site all 
of the Presidential papers of Washington, Jefferson, and 
Madison as part of our American Memory Project.
    In 2004, the Library of Congress and the National Endowment 
for the Humanities began a collaborative project to digitize 
and make accessible millions of historical newspaper pages. The 
NEH is making grants to States to support the selection and 
digitization of their newspapers of highest interest to the 
public. The Library of Congress has established the technical 
specifications for digitizing the papers and has developed a 
user interface that is both reliable and easy to use.
    The Library has provided staff expertise and content to the 
project, as well as the storage and delivery mechanisms that 
ensure access. NEH has covered partial administrative costs to 
support the library's development of the system.
    With adequate funding, digital versions of the Founding 
Fathers' papers might be treated in a similar way. Working with 
our colleague institutions, the Library of Congress could 
combine digital versions of the papers in a single Web site 
that would provide a convenient, easy-to-use, impartial, and 
free venue. Our track record in this area is unparalleled.
    The Library of Congress's interest is in making America's 
history available to Americans. Our mission is to make 
resources available and useful to the Congress and the American 
people. The raw materials of our history should be instantly 
and freely accessible for all. The Library of Congress would be 
honored to play a role, assuming a combination of appropriated 
and private funding in providing that access.
    Thank you for inviting me to testify. I shall be happy to 
answer questions. Thank you.
    Chairman Leahy. Well, thank you very much, Doctor.
    [The prepared statement of Ms. Marcum appears as a 
submission for the record.]
    Chairman Leahy. Our next witness would be Rebecca Rimel. 
She is president and chief executive officer of the Pew 
Charitable Trusts. She led Pew in promoting nonpartisan policy 
solutions for pressing and emerging problems affecting the 
American public, and there is hardly a Senator on either side 
of the aisle that has not referred to Pew at one time or 
another in debates.
    Prior to joining Pew, Ms. Rimel served as the Assistant 
Professor of the Department of Neurosurgery at the University 
of Virginia, making her the first nurse to hold a faculty 
position at the University of Virginia Hospital. Having been 
married to a registered nurse for 45 years, I'm always glad to 
see something like that.
    Ms. Rimel. You're fortunate.
    [Laughter.]
    Chairman Leahy. I am.
    Ms. Rimel received her bachelor's degree from the 
University of Virginia in nursing, and a master's degree from 
James Madison University.
    Please go ahead.

 STATEMENT OF REBECCA W. RIMEL, PRESIDENT AND CHIEF EXECUTIVE 
 OFFICER, THE PEW CHARITABLE TRUSTS, PHILADELPHIA, PENNSYLVANIA

    Ms. Rimel. Thank you, sir. I am honored and appreciative 
for this opportunity.
    Thomas Jefferson reminded us, ``It is the duty of every 
good citizen to use all of the opportunities that occur to him 
for preserving documents relating to the history of this 
country.'' That's why I'm so honored to join this distinguished 
panel today, why I'm appreciative of the Committee's interest 
in this critical work, and why I'm so grateful to the number of 
private donors, including my own board, that have invested over 
$7.5 million beginning in the early 1970s, to complete the 
scholarly work required to share our Founders' documents with 
the world.
    Others can talk more knowingly about the importance of the 
Founders' words, but I would offer just two additional points 
that show their relevance and impact. The Congressional Record 
indicates that the words ``Founding Fathers'' have been used 
more than 2,400 times on the floor of the House and the Senate 
during the last six Congresses. This is 240 years after the 
last of these great Americans passed away.
    Since 1984, more than 30 heads of state, including many 
from emerging democracies, have visited Montecello, Thomas 
Jefferson's home, to learn more about this leading architect of 
democracy. During their visits, they shared the importance of 
the Founders' ideas and ideals in their fight for freedom.
    Eight years ago, my board approved an additional $10 
million challenge grant. When coupled with other private and 
public support, it would have greatly expedited the completion 
of the letter press editions of these papers and made them 
electronically accessible to all.
    The impetus for this was the slow progress after 50 years 
of significant public and private support. It also was because 
of the high costs, which you referred to in your opening 
remarks, to libraries and the cost per volume.
    The lack of a clear understanding of the use of the public 
and private dollars is because, to my knowledge, there has 
never been a full accounting of the Founding Fathers Project. 
There has been a lack of performance metrics.
    On a more positive note, my board and I share a strong 
commitment to share with every American what is rightfully 
theirs: the words of the Founding Fathers. We and our other 
private sector donor partners required centralized 
coordination, cooperation, oversight, and greater 
accountability, and transparency and productivity as the terms 
of our grant. I am disappointed to report that our goal was not 
realized.
    The failure to fully share our Founders' papers, I believe, 
is truly a national embarrassment. If you come to share these 
sentiments, I respectfully recommend three objectives for a 
congressional oversight plan. First, Congress should draft a 
plan for completion of these papers and conduct regular 
oversight until it is finished. The Senate Appropriations 
Committee has directed the Archivist to submit a plan by the 
end of March to make these materials available online, and I 
trust that these recommendations will be carefully considered.
    Second, we should expeditiously complete the letter press 
editions. The original goal of Congress more than 50 years ago 
is still valid today. The scholarly work is important. 
Sufficient funding, coupled with more accountability and 
efficiency, will be necessary to complete these projects in a 
timely manner.
    Finally, the published volumes should be digitized, along 
with the original unannotated documents, and they should be 
placed on a single, easily accessible Web site such as that of 
the Library of Congress. Access should be free, available to 
anyone, anywhere who can access the Internet.
    Mr. Adams instructed us to never think of limitations on 
what we might do. Let's not limit our aspirations in achieving 
such a noble goal, and let's please ensure that it does not 
take us over 100 years to make the words of our Founders 
accessible to all.
    I thank you for the courtesy of your time.
    Chairman Leahy. Thank you very much. I wanted you here 
because I knew the amount of effort and money the foundation 
has put into this project, and I thank you for that.
    [The prepared statement of Ms. Rimel appears as a 
submission for the record.]
    Chairman Leahy. Dr. Stanley Katz is currently Professor at 
the Woodrow Wilson School at Princeton University, and serves 
as the Commissioner of the National Historical Publications & 
Records Commission. He is a member of the American 
Philosophical Society. He is author and editor of numerous 
books and articles. He served as president to the Organization 
of American Historians and the American Society for Legal 
History. He received his bachelor's degree, master's degree, 
and Ph.D. in English history and literature from Harvard 
University.
    Dr. Katz, please go ahead, sir.

STATEMENT OF STANLEY N. KATZ, CHAIRMAN, PAPERS OF THE FOUNDING 
    FATHERS, PROFESSOR, WOODROW WILSON SCHOOL OF PRINCETON 
               UNIVERSITY, PRINCETON, NEW JERSEY

    Mr. Katz. Thank you very much, Senator Leahy and the rest 
of the Committee.
    I want to make just a couple of very brief points in this 
opening statement. There's an awful lot for us to talk to. I'm 
here as the chair of a tiny 501(c)(3) called Papers of the 
Founding Fathers, Inc., which was created in 1981 to assist the 
then-five projects in raising private funds to support the work 
that they were doing, mainly to relieve the editors of those 
projects of the burden of trying to raise funds while they were 
editing the papers.
    I want to make the point that that is all we do. We have no 
management responsibilities, we have no authority over the 
projects themselves. We do, however, try to keep in touch with 
all of them, and each one of the projects has a trustee on the 
board of FFP, Inc.
    The question that has been bruited in the press and by 
Rebecca Rimel and others is a very important one, and that is 
the rate of productivity of these projects. They have taken a 
very long time. They continue to take a very long time. We have 
addressed the schedule in the testimony we submitted and we can 
come back to that later.
    The basic point to be made here, I think, the one that 
David McCullough made very nicely, is that these are rather 
extraordinary works of scholarship. This is a craft skill, this 
is not an industrial skill. It can't be scaled up in the way 
that industrial skills can. We can't, to use David's 
expression, build a second airport. That's not going to work 
for these projects.
    We have been proceeding with all deliberate speed, and we 
will do our best to make it speedier, but still deliberate. I 
do want to point out that there have been increases, really 
important increases, in the rates of productivity over the last 
five to 7 years. I think we have now reached what I think is a 
sustainable rate of about a volume a year from the several 
projects, and I believe that ought to be our objective.
    Third, I want to point out that while the Federal 
Government has obviously been hugely important to us, and we 
can discuss this in detail later, the projects were originally 
started on private funding. Pew was among the first, and 
certainly the most generous, of the private funders. But in 
more recent years we've been supported first by NHPRC, and then 
since 1994, by NEH as well. So there is roughly an equal split, 
slightly more on the private side, between public and private 
funders. This is a partnership we would very much like to 
retain and to expand.
    Finally, we agree that digital access and online versions 
are absolutely essential. This is an objective that we have 
been working for for a very long time now. We contracted with 
the Packard Humanities Institute in 1988 to begin the 
digitization of the unpublished papers, and we continue to do 
that. The edition that David referred to of the Franklin papers 
that is now available freely online was done--not only funded, 
but done--by the Packard Humanities Institute. They continue to 
support us for this work and we want to continue it.
    Second, all of the published volumes, letter press 
editions, are being digitized by the University of Virginia 
press. Their electronic imprint is called Rotunda. Those will 
all be available very shortly.
    Third, we were approached by NEH in 2006. We have included 
the proposal we made to NEH to prepare an online version of the 
unpublished, unedited papers in our testimony. We think that is 
absolutely essential and we'd very much like to undertake it. 
But I want to point out that this is not like digitizing 
newspapers. You cannot run them through a machine to do them. 
We have to keyboard them. We have to have expert historians 
verify the text. It will take a bit of time, although not as 
long as the published editions. That is my suggestion for where 
we ought to be headed for fuller, freer public access. Thank 
you.
    Chairman Leahy. Am I correct, Dr. Katz, that on the 
digitizing, I understand the comparison of newspapers, but also 
the ability to do that is improving all the time, is it not?
    Mr. Katz. Well, we don't scan. So in other words, it is 
improving, indeed. The rate of error is much less than it used 
to be. But all of our material, or almost all of our material, 
is holograph material, it's handwritten material. It simply 
needs an expert eye to go over it. The machine can't read it 
satisfactorily. So, we don't believe it is possible to do that, 
and I don't think any comparable project uses that kind of 
technology.
    I have, by the way, brought along the most recent volume, 
or volumes, from each project. If somebody wants to carry them 
up there, I think they are very important for anybody thinking 
about this to look at them.
    [The prepared statement of Mr. Katz appears as a submission 
for the record.]
    Chairman Leahy. When we break, I want to come down and take 
a look at a couple of those. Thank you.
    Mr. Katz. All right.
    Chairman Leahy. And Dr. Ketcham is a Professor Emeritus of 
History at the Maxwell School of Syracuse University, getting 
closer to my part of the country. Incidentally, I do not know 
when you came down, Dr. Ketcham, but you had a lot of snow 
there yesterday.
    Mr. Ketcham. Not like Virginia.
    Chairman Leahy. Dr. Ketcham currently serves on the Board 
of Directors of the Montpelier Foundation, which is down here 
in Virginia. He is working to preserve the lasting legacy of 
James Madison, Father of the U.S. Constitution and the 
architect of the Bill of Rights, and President of the United 
States.
    He worked as the editor of the papers of Benjamin Franklin 
at Yale in 1965, and is the associate editor of the papers of 
James Madison at the University of Chicago in 2006. He received 
his bachelor's at Allegheny College, and master's degree at 
Colgate University, a Ph.D. in American Studies from Syracuse.
    Dr. Ketcham, you have had a lifetime of editing these kinds 
of things. Please go ahead, sir.

  STATEMENT OF RALPH KETCHAM, PROFESSOR OF HISTORY EMERITUS, 
   MAXWELL SCHOOL OF SYRACUSE UNIVERSITY, SYRACUSE, NEW YORK

    Mr. Ketcham. Thank you, Senator. I'm pleased to acknowledge 
your work on these projects, as well as Senator Kennedy's, and 
the other members of this committee.
    The Founding Fathers Project has become the most lasting 
and significant effort to preserve the national heritage of the 
ideas and institutions upon which our political system rests.
    From the beginning with Franklin Roosevelt opening the 
Jefferson Memorial and Dr. Boyd finding at that time the energy 
to start the project on Jefferson, and going on ever since, the 
main thing about these projects is they have developed methods 
and benchmarks of fairness and accuracy for documentary 
publication that were so path-breaking, that all previous such 
publications were rendered inadequate and incomplete, and all 
subsequent publications have had to try to keep up with these 
standards. As the volumes have come out--over 200 by now--the 
projects themselves have become legendary and serve a scholarly 
and a public purpose.
    A review in the William & Mary Quarterly, recently referred 
to these publications as ``immense and invaluable enterprises 
that have already transformed the means and soundness of 
writing the history of the American founding.'' It's this 
system which all agree, I think, must be sustained if the 
remarkable and unique mission of the projects is to be 
fulfilled, as every President since Harry Truman and Dwight 
Eisenhower had emphasized.
    The question of the long time the projects have taken is 
problematic. What I'd like to address about this question is 
the nature of the papers themselves, which raise important 
questions about how the whole business can be handled.
    Actually, there are so many papers in the files, partly 
because the Founders lived such a long time. It's not 
surprising that Alexander Hamilton's papers are the only ones 
that have been completed. The chief editor of the Hamilton 
papers, Cy Surrett, emphasized long ago that he thought he 
might dedicate his volumes to Aaron Burr, who made completion 
of this task possible.
    [Laughter.]
    But the rest of them all lived a long time and all kept 
scribbling.
    But the projects themselves own no original documents. All 
their documents are in existence somewhere else. All the 
documents, as Stanley has emphasized, were handwritten 
documents, archived or held elsewhere. Or there are various 
kinds of other later copies, transcripts from unauthenticated 
sources, auction catalogues, and so on.
    All of these miscellaneous beginnings have to be typed up 
and word processed, and really can only be fully understood by 
carefully trained historians. These transcripts need to be 
proofread, and are proofread over and over again. The notes 
from various sources that are put into the editorial apparatus 
from time to time need to be carefully looked over.
    So when one asks, what do the files consist of, they 
consist of very uneven materials. There are transcripts made 
sometimes by not very skilled typists or word processors, notes 
added to the files from time to time, alternate copies of 
different documents. It's very undigested and the files fill 
shelves and shelves. So the question is, if we're going to 
reproduce this, electronically, what do we reproduce and with 
what sense of authenticity can it be brought forth?
    So I would suggest that the main thing we need to avoid is 
the interruption of the work of the ongoing editorial projects 
because the essential need of all concerned is to have these 
volumes before the public--not just the documents, but the way 
they're presented and the notes on them and so on are 
themselves a kind of historical record that David McCullough 
has mentioned.
    I think the way to speed up the whole process of getting 
these documents before the public is mainly, as David 
McCullough has also suggested, to increase the staff and 
funding of the projects. Also go ahead, as Stanley has 
suggested, on breaking the projects up so that different parts 
of them can be edited simultaneously, as the Jefferson project 
has recently done, as the Madison project has already been 
doing. I think this is most important for the ongoing work of 
the projects. So, I would urge the committee to mainly 
emphasize the continuation of that work, and then go ahead as 
much as possible with the digitalized electronic versions, too.
    Thank you very much.
    [The prepared statement of Mr. Ketcham appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much, Dr. Ketcham.
    Let me ask a couple of questions, and certainly colleagues 
can feel free to jump in here anywhere. Mr. McCullough, you and 
I discussed some of these things and where the records are. 
We've talked about these matters off and on for over 30 years. 
This is 200 years after these papers are written, 50 years 
after the effort to publish them began. I realize nobody can 
speak and say exactly what the Founders might have thought, but 
from all of your studies, what do you think the Founders would 
have thought about the lack of access of these papers, or would 
they have wanted these papers to be generally accessible to 
people?
    Mr. McCullough. Well, one thing they all had in common, it 
seems to me, is a bedrock faith in education. Jefferson 
famously said, ``Any nation that expects to be ignorant and 
free expects what never was and never can be.'' John Adams was 
the author of the Constitution of the Commonwealth of 
Massachusetts, the oldest written constitution still in 
existence, still in use in the world today, in which there is a 
paragraph about the importance of education.
    Education depends on teachers. I feel very strongly that we 
are falling very far behind standards as to how we're educating 
our young people in American history. We are raising youngsters 
today, and I see them on the best college and university 
campuses in the country who are, by and large, historically 
illiterate and it's not their faults, it's our fault.
    If the teachers, just the teachers, were to have access to 
this material, ready access to the material in either some form 
of printed reproduction, by Internet, or however it will be, 
online, that would be a giant step forward.
    There is no reason in the world, except money, cost--let's 
say investment, because that is what it would be--that this 
can't be done, if only for the purposes of educating our 
children and grandchildren.
    Chairman Leahy. I was thinking the other day of when the 
President's--and I don't mean this as a partisan thing at all. 
But the President's spokesperson was asked by somebody about 
the Cuban missile crisis. She said, I'm not sure what that is, 
but I assumed it involved missiles in Cuba.
    [Laughter.]
    Mr. McCullough. Well, Senator, that's not an isolated 
situation.
    Chairman Leahy. No. I was a law student at Georgetown at 
the time. I remember, we all sat here wondering whether the 
world was going to end. When you did your Pulitzer Price work 
on President John Adams, you were actually able to review the 
Adams papers which are in Senator Kennedy's home State at the 
Massachusetts Historical Society. What was your experience like 
in seeking access to those papers?
    Mr. McCullough. Well, there was no problem about access. 
What was astonishing to me was the volume of material that was 
not in print in any form, the letters between John and Abigail 
Adams, for example, which number in excess of 1,000, just those 
two writing to each other, neither of whom was capable of 
writing a boring letter or a short one.
    [Laughter.]
    It was exciting to be holding those letters in one's own 
hands. It's a kind of tactile connection with that vanished 
time that can't be duplicated. But at the same time, I 
wondered, why are two thirds--at that point--of those letters 
never been in print in any form?
    Chairman Leahy. Dr. Weinstein, were you trying to 
interject? I am thinking, when I read articles about those 
letters I almost feel like I'm sitting in the room with two 
remarkable people contemporaneously, talking about the greatest 
events of our history.
    Mr. McCullough. I just want to make one quick point, 
further point. All these people lived in the 18th century or 
the early 19th century. There was no photography, no motion 
pictures, no voice recordings. One would think it would be very 
difficult to reach them, to find them as human beings, and it 
would be except for what they wrote.
    That's where we have them, on paper, in their own words, 
written by their own hands, in their own time. Very often those 
letters reveal not just the history of our country, but what 
kind of human beings they were and their character, and what 
they didn't know, what they were fearful of, what they were 
angry about. It's in that realm of the papers, I think, that 
one finds what is purely magic and they come to life. The only 
way we are going to reinstate a knowledge of history among our 
children and grandchildren is if that story comes to life.
    Chairman Leahy. My time has expired, but Dr. Weinstein had 
something he wanted to add to that.
    Mr. Weinstein. Thank you very much, Mr. Chairman. First, if 
I may, I'd like to welcome my old friend from the Archives, 
Senator Cardin, here. Everything that Mr. McCullough has said 
is absolutely correct about the appalling lack of knowledge of 
history. But there is another countervailing force that has to 
be taken into account. There is a huge hunger for an 
understanding of history out there in the American public. I 
think we see this in so many different ways.
    At the Archives, we have had a remarkable spike in our 
attendance. We had over a million visitors to the Archives 
building alone, to our new exhibits there. Where they used to 
come for 5 minutes to view the Declaration, the Constitution, 
and the Bill of Rights, they now stay for an hour or more as 
families, as youngsters, as classes. We have an educational 
program going. The Library of Congress has had some of the same 
experiences, as does every other cultural institution in 
Washington. At a time when art museums were supposed to be 
fading and passing from the scene, we did a show once with six 
museum directors. There is so much new museum work going on.
    So, I'm not quite as pessimistic, David, I think, about 
this as you if we approach this effectively. I think the 
completion, the timely completion of an online edition to these 
papers of the Founders is a very important step in this 
direction now. I'm about a year or two into the frustrations of 
running the National Archives--and it's been mostly excitement, 
not frustrations--I decided that I would like to request from 
the Congress that they consider changing the inscription on the 
front of the building that says ``The past is prologue'' to one 
that reads ``Show me the money''.
    [Laughter.]
    Chairman Leahy. Some of us serve on both this committee and 
the Appropriations Committee.
    Mr. Weinstein. A final point, if I may, very briefly. With 
all due respect to my colleagues, we have 10 billion documents 
thus far. I've counted them all, and they're all there. But 
they're all scattered around.
    Chairman Leahy. You don't count them every day.
    Mr. Weinstein. Yes, indeed. But they're among the 40 or so 
facilities of the National Archives. I don't think there's an 
argument at this table. I see consensus at this table. 
Different people are functioning on different aspects of this. 
All right. Perhaps one can't build another terminal or another 
airport, but one can build another terminal onto the existing 
airport. There are various metaphors that can be applied here. 
But it seems to me that it was Bill Buckley who once said he'd 
rather be governed by the first 100 names in the Boston 
telephone directory than by the faculty of Harvard College.
    Well, I'm not going to take a position on that issue 
because we just hosted at the Archives the new president of 
Harvard, and she's wonderful. But I will say, I would venture 
if I took the six people at this table and the three Senators 
here and we sat in a room for a day or two, we could resolve 
all of this and then proceed on our way and get the job done 
and get it done in a timely way. Thank you.
    Chairman Leahy. Let us hope we do.
    Senator Kennedy?
    Senator Kennedy. Well, thank you. Thank you all very much. 
Thank you for your recommendations. Hopefully the panelists 
will give us, in addition to your testimony, your best judgment 
about how we might proceed. Let me ask, Dr. Weinstein. Do we 
have all of the documents now? Do we know where they are? Are 
there still some that are missing? What can you tell us?
    Mr. Weinstein. The usual caution of an historian: there's 
always something missing. There's always something turning up. 
Just when you think--for example, one example. At the Archives, 
one of our young archivists was flipping through an old book of 
Civil War records, very well-known. All of a sudden, what turns 
up on the text between two pages of the book but a letter by 
Abraham Lincoln, which had been known before but no one had 
ever seen the actual letter, in which he urges swift action 
after Gettysburg to move on Lee's army and cut it down and end 
the war there. A very important letter for the history of the 
period. No one knew where it was, and suddenly it's there. 
There will always be something coming up, but I think we have 
enough to work on. I don't know whether my colleagues--
    Senator Kennedy. Dr. Katz?
    Mr. Katz. One of the problems that we have, is that none of 
the projects, with the exception of the Adams papers, (owned by 
the Massachusetts Historical Society) owns any of the original 
documents, so from the start it's been a project of traveling 
around and collecting them. Many of them are in the National 
Archives, but many are not. The Jefferson papers come from 100 
different depositories around the world, for instance. We know 
that for some of the projects there are systematic portions of 
the National Archives and other places that still need to be 
combed for letters, so there is still some collecting to be 
done.
    Senator Kennedy. David?
    Mr. McCullough. The papers that are the Massachusetts 
Historical Society, largely Adams papers, as large as that 
collection is, does not constitute everything because many 
letters are still held in private hands, private collections, 
and they come on the market every now and then. There's always 
the question, is this one that should be bought or does a copy 
of it suffice? So I think it's safe to say that the others are 
more knowledgeable about this than I am, but there is a copy of 
every known paper in the Massachusetts Historical Society 
collection. But it's astonishing how many papers do come to 
light year after year. Sometimes they're very important papers.
    Senator Kennedy. Well, I imagine, and I think from your 
books, David, there's a good deal that are missing, as from 
ships that were sunk.
    Mr. McCullough. Oh, absolutely.
    Senator Kennedy. Other letters that are missing.
    Mr. McCullough. Yes.
    Senator Kennedy. As well as important documents that are 
abroad. I think one of the stories you mentioned is Adams going 
to Liden, where he stayed for a period of time. Evidently, 
during the Revolutionary War there were French officers who 
drew pictures that described the battle at Yorktown that went 
to the French archives. Then at the time of the American 
Revolution, they moved those out and they had them up in 
Holland. There are archives up there that are directly related 
to some of the things that were going on.
    I don't know whether we ought to take a look at some of 
these documents that are in other parts of the world. But I am 
interested in that. I saw these drawings and pictures that were 
absolutely extraordinary when I was over there.
    But second, in the project, do you look at the letters of 
family members? Obviously the Adams's, yes. But, I mean, other 
members of their family, their close friends, their close 
advisors. Are all of those considered when you're looking at 
these Founding Fathers? How extensively? How far out do you go? 
Do you just say, well, look, for Adams, these individuals were 
the closest advisors to him, or for Washington when he was up 
at Longfellow House during the course of the American 
Revolution, these people were the closest to him and therefore 
we've got to get their papers too. What can you tell me about 
the outreach?
    Mr. Weinstein. Very important. I think that David, Stanley, 
and Professor Ketcham might, as practitioners working on these, 
have papers, collections themselves, more up-to-date 
information. I would say that when you get away from the 
collections of the Founders and you deal with all of the other 
collections that are being addressed by NHPRC with small 
grants, but very important grants, you find much keener 
interest--particularly as you approach the present, the 19th, 
20th century, a much keener interest in collateral collections.
    For example, they've just published the first volume of the 
Eleanor Roosevelt papers, and they're absolutely fascinating. 
They have a great many of her friends and closest associates 
that are covered in them. But on the papers of the Founders, I 
think I'd rather defer to my colleagues.
    Mr. Katz. Thank you. Let me just comment very quickly on 
that. It's a key question, Senator Kennedy. When the modern 
editing began with Julian Boyd at Princeton, that was his great 
innovation, was to see that we had to use more than the 
immediate body of material created by the President himself, so 
he began collecting cognate documents.
    One of the most difficult and skilled tasks of the editors 
is to figure out by those standards what is relevant, so that 
obviously not all of the material from family members is 
relevant, so principles have been established. But it requires 
an incredible amount of time to make those kinds of judgments, 
but that is the principle of the modern editions.
    Mr. McCullough. I'd like to just, if I may, I'm a user, I'm 
a customer. I go to these volumes as someone who needs them, 
and I can't speak necessarily for how they are done or what the 
ground rules are. But an enormous part of the value of the 
papers is that they do include someone who is writing to that 
President or that person before or after they were President 
that you may never have heard of, but it's an interesting 
letter and an important letter, and the response may be very 
interesting or important.
    They identify who that person is, because very often it's 
someone who've never heard of or seems to be obscure. You can't 
look him or her up in any way. That's their huge value.
    Now, with the Adams's papers, the personal papers are being 
published at the same time in a separate set of volumes, so 
that there are two projects going forth, as well as the John 
Quincy Adams papers, which is something else.
    To give you an idea of how great is the volume of that 
collection, they are on microfilm. This is for the whole family 
down through Charles Francis Adams, Henry Adams, and so forth. 
If that microfilm were stretched out, it would be more than 
five miles long. That's how much material there is. That 
quantity has to always be taken into consideration when 
appraising the size, scope, timetable of the project.
    Senator Kennedy. Just very quickly, a question, then a very 
quick comment.
    Can you tell us, Dr. Katz, are there some interesting 
things that have developed in this project that perhaps we 
might not have been aware of previously? What can you tell us? 
Maybe Dave McCullough as well as the other historian? I mean, 
what can you tell us about whether there are some hidden 
treasures in these documents?
    Mr. Ketcham. May I answer, Senator?
    Senator Kennedy. Yes.
    Mr. Ketcham. I think this emphasizes the very miscellaneous 
nature of the documents in these projects and the different 
degree to which, already, they are available either on 
microfilm or electronically. I was just using, recently, the 
Library of Congress American Memory reproduction of the papers 
of James Madison, and it is a wonderful resource. Also, the 
University of Virginia internet publication of the printed 
volumes is helpful and important.
    There's a lot there, but it's very miscellaneous. It has 
always been seen that way, ever since Dr. Boyd established the 
very broad notion of what Jefferson's papers were, letters to 
him, even some letters about him, responses. All of these get 
put in miscellaneously over the years as editors come across 
them, as other scholars let the editors know about papers and 
so on.
    So the stuff that's in the files is very miscellaneous. I 
think there are some, often, wonderful nuggets. Ellen Cohen is 
here, the editor of the Franklin papers. I guess you recently 
found on the back of some document information about when 
Franklin first arrived in Philadelphia, or something like that, 
which wouldn't have been understood unless a very skilled 
editor was looking at the document, looked at the back of it.
    I think actually it's these nuggets and these insights 
which come from a deep understanding of the documents which are 
really most important. I think we ought not to hold up the 
publication like these volumes. I think if that could be 
sustained, and maybe even speeded up along with electronic 
publication. It would not distract the work and the money going 
into these volumes in order to do an online version. They have 
to go on together.
    Senator Kennedy. Just a final comment on what Dave 
McCullough talked about, about the teachers, about learning, 
and about history. We are trying to do our best to get the 
Princeton standardized test to put history back on, civics back 
on. If we can do that, then the schools will once again start 
teaching about this.
    It's something that I know you're all very passionate 
about. For someone who serves on the Education Committee, I can 
see that we really have fallen so far behind. What Allen has 
said about the thirst of the American people for all of this 
information is true, and the link is somewhere here in getting 
the legislation and funding on it. We will certainly do what we 
can.
    Thank you again.
    Chairman Leahy. Thank you.
    Senator Cardin is here and has taken a strong interest in 
this subject, both as a member of the other body and now here.
    Thank you for joining us.

 STATEMENT OF HON. BENJAMIN L. CARDIN, A U.S. SENATOR FROM THE 
                       STATE OF MARYLAND

    Senator Cardin. Well, thank you very much, Mr. Chairman. I 
really want to thank you for holding this hearing. It's a real 
pleasure to listen to these experts. I'm somewhat humbled when 
I try to figure out what question to ask, but let me, first, 
thank you for all of your work and give you a couple of 
personal stories.
    The day before I was sworn in to the Senate, I decided to 
do something that Senator Kennedy has done with his family. 
Senator Kennedy takes his family to historically important 
sites on a regular basis, so I decided to copy that idea and 
took my family to the National Archives the day before I got 
sworn in. We spent a very enjoyable time there, and Dr. 
Weinstein was very generous with making it available.
    But the story is, I have two 12-year-old nephews who were 
there, and to this day they talk about that experience. They do 
not talk about what happened the following day when I got sworn 
in, but they do talk about that experience with the National 
Archives.
    [Laughter.]
    And they challenge themselves on history and have gotten 
very interested in the history of our Nation, which I think 
underscores the importance that if information is more 
available, if our educators are more informed, that there is a 
desire out there to learn more about the history of our Nation, 
understanding its importance for our future.
    The second story is that this past weekend, Friday, the 
Democratic members of the Senate met in Mt. Vernon and it was a 
very important, I think, meeting for us. We had experts who 
shared their views on many subjects. But to me, the highlight 
was really lunch, where we had an expert talk about Washington. 
I learned a lot more. It helped me to understand that the 
Hamilton-Jefferson debates are relevant to us today on the 
issue that's on the floor today, the FISA legislation and the 
power of the President. So we learn a lot and it is very 
important to us, and I thank you for trying to make this more 
available.
    The third story I want to tell, which leads to my question, 
is that when I was in the State legislature I was Speaker of 
our House, and I decided to take on a project, which was the 
publication of the Carroll papers. The Carroll papers are very 
important to the history of Maryland, thousands of letters that 
were written that were not available. I supported that project 
for, I guess, around a decade in order to get it done. It took 
a long time. Once I left the legislature and became a 
Congressman, the interest was no longer there and the funding. 
I tried to keep it going. I did for a while. But it was 
difficult, without being there, to keep it going.
    So I guess my question to you is, this project which I 
believe is so important to our country but does not have the 
continuing interest often by the government itself, when so 
many other areas are garnering attention. We don't have as many 
hearings. We don't have hearings on this subject as we do on 
national security, homeland security, and all the other issues 
that we have to deal with.
    What can we do as a Congress to try to provide the staying 
power so that our Nation continues this project? Because it's 
going to take a long time. We'll never complete it, but it's 
going to take a long time. What can we do to try to 
institutionalize the work that you are doing so that it is 
available to our country and to future generations?
    Mr. Weinstein. The four most dangerous words in the English 
language in this town, Senator: I will be brief. Let me try to 
be brief. You are asking the question, the medium is the 
message. You are here. You're not at some other hearing. You're 
spending this time, as Senator Kennedy is, concerning yourself 
with how one can project this issue in an effective way.
    You mentioned the tour you took with your family. I wish I 
could have 20 members every day and spend a couple of hours and 
talk about the issues of running an archive, running the 
National Archives, because that's where you get engaged and 
they get engaged in this process. Some people have had the 
blessings of family interest, like Senator Kennedy. Some have 
had the blessings of a lifetime's worth of interest, like the 
Chairman, and many who are not here.
    But, for example, Senator Carper, one of your colleagues, 
took all the new members of the Senate on an evening in which 
they just toured, had some dinner, we talked about some of the 
issues, what was there, what wasn't there. And not just the 
Archives. Go to the Library of Congress. Go to Mt. Vernon. Go 
to anyplace where one can engage, and not just in the 17th and 
18th centuries. We are seriously considering putting some 
things in that will clarify or get to many of the 19th or 20th 
century issues. These are the kinds of things, the constant 
attention. And it doesn't have to be anything dramatic. It can 
be an hour in the morning, a reception, a dinner.
    It also, frankly, has this kind of engagement in the 
history of our community and this institution, the institution 
of the Congress, that has enormous side effects, side benefits 
in terms of restoring the dialog between Senators, members of 
the House, the other body, and the American public. It is 
amazing how many people, how many parents come up to me in the 
Archives and want to talk about their appreciation for the 
ability to go into this. So it's not a mystery, it's not brain 
surgery. It's just constant attention.
    Mr. Katz. Senator Cardin, can I be pointed in my response? 
There are two agencies that support the historical editing 
effort. They've been wonderful, both of them. The first, was 
NHPRC, which is part of NARA, the National Archives, and the 
other is the National Endowment for the Humanities, and they've 
both been supporting this effort for a long time, NHPRC since 
its beginning and NEH since 1993. But those of us in the 
community are constantly struggling to support Allen and Bruce 
Cole, and it's not easy.
    This year, again, the White House has zeroed NHPRC out of 
the budget, so we'll be back to those of you on the 
Appropriations Committee to suggest that you reinsert it in the 
budget. NEH also always needs more for this portion of its 
budget. But, of course, the Founding Fathers competes with 
other interests that both agencies have, and we do understand 
that, but the steady flow of money for this has been a 
struggle.
    Let me say, for the community on the whole, we've been very 
pleased with what we've gotten. The Congress has been actually 
quite good to us.
    Senator Cardin. Let me just make a comment. I get a lot of 
requests in my office for people to visit the White House, and 
I can understand the importance of visiting the White House. We 
cannot accommodate all those requests, so I freely suggest to 
visit the National Archives and Library of Congress, and many 
of my constituents have taken me up on that and none have ever 
regretted those visits.
    Thank you, Mr. Chairman.
    Mr. McCullough. May I just answer your question? I would 
suggest that you and some of your colleagues make a trip to 
Charlottesville and go and see what is being done with the 
Jefferson post-Presidential papers at Montecello, and how they 
have increased the volume-per-year production without any 
jeopardizing of the quality of the project, and how that system 
may be the solution to the problem. I would urge you to talk to 
Dan Jordan and others who are working there. It's been done. 
It's been proven to work. It's a superb, hopeful sign that we 
ought to know more about.
    And may I also suggest that you, if not in any formal, 
official way, but in your own response to this subject and to 
the solution to the problem of time, get to know more about 
what Rebecca Rimel has done, what the Pew Foundation has done, 
not just with the millions of dollars they've contributed, but 
with the ideas, the commitment, and the faith. Those of us who 
care about this care about this because I think we care about 
our country. That's certainly true of Rebecca and those that 
she works with at the Pew Foundation.
    Chairman Leahy. Thank you.
    I introduced some of you to Colleen Mason, who has been 
doing archival work in my office. The more I listen to this, 
the more I think of things we could do. Going down to see the 
Jefferson papers, that is something that is relatively easy for 
us to get a group together and go down.
    Dr. Marcum, I tell Vermonters, I do similar things to what 
Senator Cardin does. Of course, he lives right next door. That 
means, what is the population of Maryland?
    Senator Cardin. Over 5 million. Maybe 6 million.
    Chairman Leahy. They're available to drive down here at any 
time and expect to see them, and except to do these things. 
Vermont has only 660,000 people. What I enjoy, is when we have 
a President Inaugural, somebody in my office told me they'd 
been receiving these requests from all those who graduated from 
high school with me for tickets, and we were up to about 250. I 
said, there were 29 people in my high school class.
    [Laughter.]
    But I'm delighted by their interest. I suggest they go over 
to the Library of Congress and see the plaque where Justin 
Morrill is memorialized from Vermont, and gave the money to 
help build the building. He was the third-longest serving 
Senator in Vermont's history. So, I do that. But there are so 
many of these places you don't think of.
    This is my last question. I'm going to be writing to each 
of you. I have other questions. But suppose you're in a small 
rural State like mine. I mean, there is an advantage for 
Senator Cardin's constituents. They can just drive down. But 
suppose you're in a small rural State like mine. Suppose you're 
a high school teacher in a class of 29. I don't know if we have 
any high school classes that size. But you want to gain access 
to the Washington papers to prepare a history lesson. The 
executive director of the Vermont Historical Society told me 
the full sets of the volumes are available at most of the 
larger academic libraries, but not all Americans can easily 
travel to use the books. I will put that letter in the record.
    But what do you do in a case like this? And to add to it, a 
number of our smaller schools in a rural area like that are 
doing more, using telecommunications, a teacher in one 
classroom and probably three schools. How do they do this and 
bring it alive? Nobody is going to learn history if you just 
simply say, memorize these 28 dates. Who is going to do that? 
But if you could bring it alive and say, look, this is what 
they wrote, how do you do it?
    Mr. Katz. Can I respond? And I think Ralph wants to 
respond, too.
    Chairman Leahy. Sure.
    Mr. Katz. This is key. In the work that I do in training of 
history teachers and working with history teachers--Ralph does 
the same sort of thing, the great emphasis over the last 30 
years has been teaching American history from documents. That 
is what we are training school teachers to do now. It's been, I 
think, extremely effective to be able to train teachers 
properly and continue that teaching. NEH has been very good at 
assisting us in that.
    Getting access to the documents normally, frankly, comes 
through printed books of documents because that turns out to be 
cheaper and easier to use. You can put it in the kids' hands. 
Because not all schools have the kind of online access, 
particularly for teaching in class, or have computer projectors 
that a teacher would need in order to display an online 
document.
    So while I dream of a time when the schools will be doing 
that and where the teachers will be sophisticated enough to use 
those documents in a proper way, for the moment we are 
preparing both online, but I think more importantly in print 
form, those kinds of materials, and increasingly that's what's 
being done in Vermont and elsewhere.
    Mr. Ketcham. I'd answer that in a couple of ways. One, I 
think the sort of documents that a teacher could use right 
away, the important ones, those are already out there. I don't 
think there's much hidden or unavailable in that way.
    I think, also, the other way that teachers need to come to 
a sound understanding of the founding that they can pass on to 
their students is through works like David McCullough's. What 
does David need to write his books? Well, he needs the kind of 
access that he's found in the printed volumes already and the 
kind of subtle understandings and insights that come from a 
carefully edited document. He's mentioned ways in which that 
works. So I think it would really be a shame to slow up the 
production of the works that are needed by people like David 
McCullough, whose books are going to be read by the teachers 
who teach the young. It's that process which I think needs to 
be very carefully guarded.
    Chairman Leahy. Dr. Marcum?
    Ms. Marcum. I did some searching on World Cat--it's kind of 
a union catalogue of what libraries hold--on the Alexander 
Hamilton papers since they've been published. Looking at 
Vermont, there are three institutions that have the papers of 
Alexander Hamilton in Vermont: the University of Vermont, 
Norwich University, and Middlebury College. There are probably 
other libraries that have these volumes that haven't 
contributed their bibliographic records to World Cat, but in 
general the academic libraries have these volumes, public 
libraries don't. They're too expensive for public libraries.
    I think it's important to work with teachers, as Stan has 
described. Electronic resources are particularly important 
because that's where school children go to find information. 
They look, first, on Google, frankly. I think we have to be 
concerned about making those materials available where school 
children search for information. Thank you.
    Chairman Leahy. I think I have hit a point here. Go ahead, 
Ms. Rimel.
    Ms. Rimel. Mine maybe is slightly different, but a response 
to a couple of your other questions. If there's interest in 
retaining the private sector's support for these projects, it 
is going to require greater oversight, greater transparency and 
accountability, and greater productivity, because representing 
the private donors here, we have a fiduciary responsibility in 
the investment of these.
    Chairman Leahy. But who does that? Who does that kind of 
oversight and transparency? What's the best way to do that?
    Ms. Rimel. I think what we're asking for is more for these 
papers as investors in the project.
    Chairman Leahy. No. But, I mean, who's going to make sure--
maybe I misunderstood what you said. You said it needs more 
oversight, more transparency. Is there an ultimate oversight 
person or function? Who does that?
    Ms. Rimel. I think that's what we're asking Congress to do.
    Chairman Leahy. OK.
    Ms. Rimel. After 50 years, we feel that that's needed, and 
I think that kind of assurance is going to be needed by the 
private sector to continue our investment in these projects 
going forward.
    Chairman Leahy. Good point.
    Doctor?
    Mr. Weinstein. Senator, we have many different kinds of 
students who need to be educated, ranging from those in the 
primary grades, secondary grades, high schools, colleges and 
universities. At the National Archives, we try to address this 
problem. It's now part of our commitment, it's part of our 
strategic plan--it wasn't 3 years ago but it is now--and we do 
it in a variety of ways, which involve extensive use of 
educational resources, whatever is available, in the four 
Washington, DC facilities, the 14 Regional Archives, the 13 
Presidential Libraries, the 17 Federal Record Centers, and you 
can get an awful lot done when you are in 20 States, and if 
you're not in the State, you have access to it next door.
    If you take your section of the country, as far as I know 
there's no archival facility in Vermont. They may not have told 
me about it yet. But in any event, we are in Massachusetts at 
the Kennedy Library, we are in the Berkshires, western 
Massachusetts, very convenient to where you are as a Regional 
Archive. We are at the Roosevelt Library just across in New 
York City.
    There are ways of doing this without straining one's self 
if one wants to do it. It's just a question of getting in 
there, rolling up one's sleeves, and using the resources of the 
colleges, universities, and the rest that exist everywhere. We 
are a country which is absorbed with education and I'm not sure 
we use it effectively in terms of history and the civic 
mission. But that's the challenge, and what we're talking about 
today is one part of that.
    Chairman Leahy. When you mentioned Norwich University, that 
is the oldest private military university in the country. I was 
born in Montpelier. It's about 12 miles away, the other 
Montpelier. But 12 miles away from there. It's been a very 
interesting place. They have given honorary degrees to Thomas 
Edison. I was there once with Ambassador Vernon Walters, Dick 
Walters, when he received an honorary degree. He's a man who 
spoke about 13 languages fluently. He was our Ambassador to the 
United Nations. He's been deputy head of the CIA. He's a three-
star general. Never got a college degree.
    Mr. Weinstein. That's right.
    Chairman Leahy. He got a lot of honorary degrees.
    Mr. Weinstein. I knew Dick Walters.
    Chairman Leahy. And a great raconteur.
    Mr. Weinstein. Indeed. Those of us who taught at Smith 
College for 16 years know Vermont very well, and enjoyed it.
    Chairman Leahy. Thank you.
    I think Mr. McCullough told me once of beginning research 
there, beginning to work on one of his books in Vermont, if I'm 
correct.
    Mr. McCullough. I did. I used the collection that's at 
Middlebury College down in the basement, which is provided for 
attorneys in every State. They had all the original reports of 
the various expeditions set out to determine which would be the 
best route for a Panama Canal.
    Chairman Leahy. Panama Canal. And I've told that story 
many, many a time.
    Mr. McCullough. And it's like going into a coal mine, 
because everything was very dirty so I wore my working clothes.
    Mr. Chairman, I would like to just make something clear 
that, from what Professor Katz said, may not be clear. When I 
suggest building another airport, what I mean is that we double 
the number of able, trained, good scholars and editors who are 
working on the project, and that there is no need to slow up 
any production in order to do these other things if you have 
the people necessary to just do more.
    There are too few people, the funding is too little, and 
it's not necessary to wait as long as it has taken if you 
increase the number of people involved. That does not mean you 
increase the number of people with less than adequate people. 
You increase the number of people with the best there is. We 
can do it. It's just a question of, are we willing to spend the 
money, make the investment, make the commitment? And we know 
from the example of what's going on at Montecello and at the 
Massachusetts Historical Society that it can be done. It works.
    Chairman Leahy. Thank you. I will leave the record open for 
anybody who wants to add to it. You'll get copies of the 
transcript. I can't tell you how much I've enjoyed this. I've 
sat through thousands of hearings on every subject imaginable, 
some fascinating, some where I'm sending quiet signals to my 
staff to keep sending more coffee because I don't want to doze 
off up here. This one was fascinating. Thank you all very much.
    Mr. Weinstein. Senator, I think I speak for all of my 
colleagues at this table to thank you and your two colleagues, 
your two Senator colleagues, for having taken this time. I 
don't know of many hearings that I've attended and which I have 
testified at, at which the members of the Senate stayed from 
start to finish. So, I we are very grateful. Thank you.
    Chairman Leahy. And our caucus where the Senate historian 
comes in, everybody says that is the most enjoyable part of our 
caucus. We fight after that, but everybody shuts up and listens 
to that part. Thank you.
    [Whereupon, at 11:41 a.m. the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
